Supreme Court, U.S.
FILED

OCT - 5 2019

No. 19-279

OFFICE OF THE CLERK

In the

&wane Court of the Ilinfteb fotateci

SHIRLEY JN JOHNSON
Petitioner,
v.
NEW DESTINY CHRISTIAN CENTER CHURCH, INC.
a/k/a Paula White Ministries
a/k/a City of Destiny
PAULA MICHELLE MINISTRIES, INC.,
a/k/a Paula White Ministries
PAULA MICHELLE WHITE
a/k/a Paula Michelle Cain
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
PETITIONER'S REQUEST THAT RESPONDENTS'
MOTION REQUESTING EXTENSION OF TIME TO
FILE BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI BE
SUBMITTED TO THE COURT
Shirley Jn Johnson, Pro se
P.O. Box 58818
Seattle, WA 98138
(253) 846-6805
Email: theremnantsjnj@yahoo.com

RECEIVED
OCT 8 2019
OFFIC OF THE CLERK
SUPREME COURT U.S.

October 5, 2019
Delivered via Express U.S. Mail

Scott Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
RE: Respondents' Motion for Extension of Time to File Brief
in Opposition to the Petition for, a Writ of Certiorari
Shirley Jn Johnson v. New Destiny Christian Center Church, Inc., et al
Case No. 19-279
Dear Mr. Harris:
Petitioner respectfully requests that Respondents' request for an extension of time
to file their Brief in Opposition to the Petition for a Writ of Certiorari be submitted
to the Court for the following reasons:
Rule 30.4, provides that:
"A motion to extend the time to file any document or paper
other than those specified in paragraph 3 of this Rule may be
presented in the form of a letter to the Clerk setting out specific
reasons why an extension of time is justified. ..."
The Petition for a Writ of Certiorari was filed with this Court, and emailed to
Respondents' Counsel on August 14, 2019, and docketed on September 3, 2019.
Respondents did not present their request to Scott Harris, Clerk of the Supreme
Court as required by Rule 30.4; instead, one day before the October 3, 2019 deadline,
Respondents' request for extension of time was presented to Danny Bickell who is a
Deputy Clerk for Practice & Procedure, although the letter was addressed to:
Danny Bickell, Clerk
Supreme Court of the United States
On October 1, 2019, Defense Counsel contacted Petitioner requesting a 30-day
extension to file their Motion — stating that they may not need the entire 30 days, but
would file their Brief "as soon as it is ready to go". (attached E-mail). There was no
mention of a need to secure an outside vendor. Further, Defense has had ample time
(since August 14, 2019) to write their brief and secure a "third-party vendor" to print

Scott Harris, Clerk
Supreme Court of the United States
October 5, 2019
Page 2

their booklets. Moreover, it would be expected that a long-established firm as large
as Wicker-Smith would already have an established business relationship with a
viable vendor, or possess the equipment to print its own booklets.
3. Respondents should not be allowed an extension of time simply because they
failed to do their clue diligence in adhering to the Court's deadline. Respondents'
reasons for an extension of time is unjustified, and their Motion should be denied.
Since the deadline of October 3, 2019, had already passed when the Motion was
initially granted, it should be deemed that Respondents have automatically waived
their right to respond to the Petition for a Writ of Certiorari.

Respectfully submitted:

S irley Johnson, Pro se
P.O. Box 58818
Seattle, Washington 98138
(253) 846-6805
theremnantsjnj@yahoofcom

No. 19-279
In the

Supreute Court of the tilniteb Otateg

SHIRLEY JN JOHNSON
Petitioner,
v.
NEW DESTINY CHRISTIAN CENTER CHURCH, INC.
a/k/a Paula White Ministries
a/k/a City of Destiny
PAULA MICHELLE MINISTRIES, INC.,
a/k/a Paula White Ministries
PAULA MICHELLE WHITE
a/k/a Paula Michelle Cain
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
CERTIFICATE OF SERVICE
REQUEST FOR SUBMISSION TO THE COURT
Shirley Jn Johnson, Pro se
P.O. Box 58818
Seattle, WA 98138
(253) 846-6805
Email: theremnantsjnj@yahoo.com

CERTIFICATE OF SERVICE

Under penalty of perjury, I declare that an original and eleven (11) copies of the
REQUEST FOR SUBMISSION TO THE COURT were sent via Express U.S. Mail to
the Clerk of the Court, and three (3) true and correct copies were served via Express
U.S. Mail and by electronic mail to:

Michael R. D'Lugo, Esquire
mdlugo@wickersmith.com
Krista N. Cammack, Esquire
kcammack@wickersmith.com
Wicker Smith O'Hara McCoy & Ford, P.A.
P.O. Box 2753
Orlando, FL 32802

Executed on October 5, 2019

BY.
irley J Johnson, Pro se
P.O. Box 58818
Seattle, WA 98138
(253) 846-6805
theremnantsjnj@yahoo.com

